••

No.

In The
Supreme Court of the United States
•
SHANIZ WEST,
Applicant,
v.
CITY OF CALDWELL; CITY OF CALDWELL POLICE DEPARTMENT;
FORMER CHIEF CHRIS ALLGOOD, DOUG WINFIELD, Sergeant, in his
official and individual capacity; ALAN SEEVERS; MATTHEW
RICHARDSON,
Respondents.
•
APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI
•
To the Honorable Elena Kagan
Associate Justice of the United States Supreme Court
and Circuit Justice for the Ninth Circuit
Shaniz West
10674 Gossamer St
Nampa, ID 83687
Pro Se

RECEIVED
NOV 1 9 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

To the Honorable Elena Kagan, Associate Justice for the United
States Supreme Court and Circuit Justice for the Ninth Circuit:
Petitioner Shaniz West respectfully requests, under Supreme Court Rule
13.5, that the time to file a Petition for a Writ of Certiorari be extended for 60 days,
up to and including February 3, 2020.
On July 25, 2019, the United States Court of Appeals for the Ninth Circuit
entered an opinion and judgment reversing the district court's order denying
qualified immunity to the police officers in the above-captioned case. See
Attachment A. On September 4, 2019, the Ninth Circuit entered an order denying a
timely filed petition for rehearing en banc. See Attachment B.
The United States Supreme Court now has jurisdiction to review a Petition
for a Writ of Certiorari under 28 U.S.C. § 1254(1) and Supreme Court Rule 10. The
Petition for a Writ of Certiorari is presently due on December 3, 2019. Petitioner
files this Application at least ten days before that Date. See S. Ct. R. 13.5.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a Petition for a Writ of Certiorari should be extended for 60
days for the following reasons:
1.

Petitioner Shaniz West was represented by counsel below, but those

attorneys are not currently admitted to the bar of this Court and are therefore
unable to file any papers on her behalf. Ms. West is currently in the process of
retaining counsel for proceedings in this Court. She is therefore currently
proceeding pro se.

2

2.

Petitioner has recently been in contact with attorneys from a national

law firm with experience practicing before this Court who have expressed interest
in representing her in filing a petition for certiorari. She therefore believes in good
faith she will be able to retain experienced counsel to allow her to proceed with this
case. It would be impossible, however, for her to retain new counsel and for her new
counsel to familiarize themselves with the case and draft a petition before the
current deadline of December 3, 2019.
CONCLUSION
For the foregoing reasons, Petitioner respectfully requests that the time to
file a Petition for a Writ of Certiorari in this matter be extended 60 days, up to and
including February 3, 2020.
Dated: November

\I\

, 2019
Respectfully sub iiit ,

Shaniz W
Pro se

3

